Spotlight
Department of Homeland Security

Ofﬁce of Inspector General                                                                             April 2014 OIG-14-84


Why This Matters
Each year, issues related to
                                          Information Technology
information technology (IT) control
deficiencies are identified at the        Management Letter for the FLETC
component level during the
Department of Homeland Security
(DHS) annual financial statement
                                          Component of the FY 2013 DHS
audit. Although Federal Law
Enforcement Training Center               Financial Statement Audit
(FLETC) took corrective action to
address its prior year IT control
deficiencies, issues continued to be
identified that impact FLETC's
financial data. Collectively these
deficiencies negatively impact the
                                          What We Determined
internal controls over FLETC's
financial reporting and its operation.    The Office of Inspector General contracted with the independent public accounting firms
                                          KPMG LLP (KPMG) to audit the DHS fiscal year (FY) 2013 consolidated financial
                                          statements. During fiscal year (FY) 2013, FLETC took corrective action to address certain
                                          prior year IT control deficiencies. FLETC made improvements over strengthening controls
                                          around segregation of duties and configuration management. However, during FY 2013,
                                          KPMG identified IT general control weaknesses that could potentially impact FLETC’s
                                          financial data. We found that the most significant findings from a financial statement audit
                                          perspective were related to the FLETC and Intelligence & Analysis and Operations
                                          Coordination and Planning (I&A/OPS) financial data related to controls over access control,
                                          segregation of duties, and IT application controls for FLETC and I&A/OPS core financial and
                                          feeder systems. Collectively, the IT control deficiencies limited FLETC’s ability to ensure
                                          that critical financial and operational data were maintained in such a manner to ensure
                                          confidentiality, integrity, and availability.




For Further Information:
Contact our Office of Public Affairs at
(202)254-4100, or email us at
DHS-OIG.OfficePublicAffairs@oig.dhs.gov
